UNITED STATES SUPREME COURT
Samuel R. Toliver,
Petitioner,

MOTION FOR RECONSIDERTAION
DOCKET# 20-7384
WRIT OF CERTIORARI

v.
K. Ander,
Respondent

Petitioner has submitted, a Writ of Certiorari, was DENIED, by
this Court in violation of Petitioner's U.S.C.A. Const. First
Amendment, and his U.S.C.A. Const. Fourthteenth Amendment, which
mandates equal treatment under the law,..Petitioner Civil rights
claim produces: certificate documents attesting to a "fact" )
that distinctly is unmistakalbe- substantial-real-true-solid
which fits the entire "category" of a petition must be briefly
and distinctly state its grounds and must be accompanied, by a
certificate stating that the grounds are limited to intervening
circumstances of substantial or controlling effect or to other
substantial grounds not presviously presented. In petitioner
original civil rights claim and his reconsideration claim!

Civil claims that shows "plausible" seemigly true trustworthy
on its "face" See, Bell v. Atl. Corp v. Twombly,550 U.S. 544,
570 (2007), that petitioner DENIED, claim and entry into this
Court, of 12 Justice panel, is in confilct with its own law/
litigation, under cited case and in violation of the petitioner

RECEIVED
JUN 2 - 2021
OFFICE OF THE CLERK
SUPREME COUT-IT. Lys.

U.S.C.A. Const. First Amend, right to redress govervment of
grivances, U.S.C.A. Const. 14th. Amend. equal treatment

Ai

protection Clause, Rule 44.6 is stated by the Court, clerk
and is in clear violation of U.S.C.A. Const. First Amend.
ifLDENIED, by a rule which already has been met in petitioners:
original-reconsideration civil claim. Due Process Rights, violated?

A DENIAL, under a rule is in violation of petitioner U.S.C.A.
Const. First Amend, Fourteenth Amend,. It is imossible for a law
which violates the Constution to be valid. This is succinctly
stated as follows: " All laws which are repugnant to the
Constution are null and void". See, Marbury v. Madision,
5 US (2 cranch) 137, 174, 176 (1803), which would be therefore
Unconstutional and in conflict with its own laws/litigation under
cited case! and U.S.C.A. Const. First Amend. Fouthteenth Amend.
and shows no equalttretment under the law of the land, and
prejudice towards pro-se colored prisoners, by this Court if
DENIED, by a rule over the U.S.C.A. Const. 14th. Amend. invokedu
by petiotioner to the justice of 12 and not a court/clerk or a
court analyst. to decidedahis Civil rights violation by the
respondents!

*2=

reconsidertaion GRANTED, will show good faith under Article IV
of the Constitution of the United States "mandates" that all
the judges" of every state are bond to the Supreme Law of the
Land, all judicial officers shall take a oath or affirmation to
support the Constitution. The office of the judge is an office of
Public Trust under the constitution and this duty and obligations
on the judges. This Court will be in Breach of that duty,. See,
Public Trust:csection (a)(7)(12), Title 5 Chapter XVI in oath of
Public Trust.

Petitioner civil rights claims shows all requirments thats
require to be placed in "front of the justice of 12 panel" See,
Bell v. Atl. Corp,v. Twombly, 550 U.S. 544, 570 (2007), with all
Appendixs attached! to support! OF "FACTS" or substantial-and ,,orc.
distinctly-which all means plausible on its face, cited case!

RECONSIDERATION: Should be GRANTED, under "facts" and good faith
all under the petitioners U.S.C.A. Const. 1st, 14th, Amend. his
Due Process Rights, to appeal and petition be herd by a justice
of 12 for his Civil rights violations thats govern by his humann
rights and the Federal-State Constitution as this colored-pro-se
prisonser is entitled to in this Court.

=3=

TITLE OF CIVIL CALIM CASE# 20-7384, Civil Claim 426U.S.C. 1983
sum $900,)000Udollars , being placed into solitary confinment for
arrserting petitioner U.S.C.A. Const. First Amend. Fouth Amend.
was GRANTED, in claim. See, original claim ancLappendix(s).

OATH PURSUANT TO UNAVAILBILITY OF NOTARY SERVICE!
Since Notary Service is currently not avaible in the 15 day
deadline set by Court on May 18, 2021, petitioner recevied on
0
May 21, 2021, on a Friday, by via legal mail.. I

sac-

declare under the penalty of perjury that the declaration(s) in
the attached documents of RECONSIDERATION TO APPEAL!, are true
and correct based upon my personel knowledge. Further, I
respectfully request that this Court accept this oath pursuant to
28 U.S.C.A. 1746,

The petitioner also states under the "mailbox rule", a pleading
is consider-"FILED" by a prisoner on the date it was given to a
prison offical for mailing. Houston v Lack, 108 S.Ct. 237 (1988).
to met the deadline by this court!
Dated: May 21, 2021
Samuel R. Toliver,
Colored-Pro-SePtisoner of NYS.

=4=

UNITED STATES SUPRME COURT
MOTION FOR RECONSIDERATION
DOCKET# 20-7384

Samuel R. Toliver
Petitioner,

Writ of Certiorari
K. Adner,
Respondent,

Petioner Writ of Certiorari was DENIED, by this Court, in
violation of his U.S.C.A. Const. First Amend. and his Fourteenth
Amend. under equally treatment Clause, right to redress court
which is the right for petitioner Civil claim violation to be
herd and judged by the panel of 12 judges not by a case analyst
which no judges has decided, in petitioner case!
,

United States Surprme Court "cannot be in conflict" with its own
law/litigation under case of Bell AtI. Corpvv. Twombly, 550 U.S,
544, 570 (2007), A claim must not be dismiss if its stated
enough "facts" and plauisble on its face" AND shows factual
content that defendant is liable for the misconduct alleged" see,
"Ashcrofty v. lqbalM56 U.S. 622, 678 (2009), most favorable to
plaintiff supported by Appendix (D)4(F).

=1=

RECEIVED
MAY 1 8 2021
R
SUPREME COURTLERK
U.S.

The opening of the petitioner sealed mailed legal mail was not
accidential, information contained in letter was used against the
petitioner in form of relation, placed in "Solitary Confinment"
for asserting his First Amend. right to petition the court of
redress, against responents, supported by AppedikL(D).
Mitchell v. Forsyth, 472 U.S. 511 (1985), who the Solictor
General waived counsel upon Responents March 29, 2021.

Petitioner invokes the Fourtheenth Amendment, that was violated
under Equal Protection Clause which mandates equal treatment
under the law. Which was violated due to Color-status-indigent,
place in Solitary confinment for asserting his U.S.C.A. Const.
FirstzAmend. confirm by Federal Court judge NUARD((N.D.W.Y),
under the Fourth Amend. GRANTED, in Appendix (D)4(F), and also
violated by this Court, for DENIAL, of access to panel of 12,
judges! for the violations of his civil human rights!

Essential to that protection is the guarantee that similary
situated persons be treated equally, See, City of Cleburne, Tex y
v. Cleburne Living Ctr., 473 B.S. 432, 439 (1985). Petitioner
has indeed has met the "criteria" of its own law/litigation in
cases of Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)
"facts on its face" see, Appendix (D) & (F), that the defendant
is liable for the misconduct alleged! "Ashcrofty v. lqbal? 556 O.
U.S. 622, 678 (2009), In Appendix (D).

2=

4-,

I-N CONCLUSION OF LAW

Toliver, is a colored-pro-se-indigent temporay/prisoner until
July 12, 2021, release date, and has a right to the panel of
justice of 12, in this Court under U.S.C.A. Const. 14th. Amend.
that the petitioner invokes! under the law, to be treated equally.
as this court has done for the LOBTi'dothMUnity, that prisonsers
of the State, colored be treated just as equally as that
community!

A DENIAL, of reconsideration is a DENIAL, of the petitioner
U.S.C.A. Const. 14th, Amend. that:coLored-pro-se-prison community
has no civil human rights, and are not equal in this Court, also
will show "conflict with its own law and litigation under the
cases of Bell Atl. Corp v. Twombly, 550 U.S. 544, 570 (2007);
and Ashcrofty v. lqbal, 556 U.S. 622, 678 (2009). Which this
Court has DENIED, Petioner Writ of Certiorari and showed that
conflict!

The lower courts are indeed in conflict with all other appellant
courts regarding ExhaustediRemeides supported by Appendix (E),
and See,in conflict of Ross v. Blake, 136 Sup. Ct. 1850 (2016);
and Mitchell v. Forsyth, 472 U.S. 511 (1985), conflicting with
Bell Atl. Corp. v. Twombly, and Ashcrofty v. lqbal, (because
petitioner fits both criteria see, Apendix,(D),(F).

=3=

4)

-

➢

RECONSIDERATION:, should be GRANTED, by this Court civil rights
claim violation by RESPONDENTS, be place in front of the 12
justice panel of this court, upon petitioner U.S.C.A. Const.
14th. Amend. Equal treatment under the law, his Due Process
rights, and his FirstyAmend. right to redress the government
aginst respondents for violating hi civil humanitrights!
Petitioner is entitled to 42 U.S.C.A. 1983.:Rivil Suit for
$900,000 dollars, or as this court see deem fair and justice
for petitioner Civil human rights violation.

I declare under the penailty of perjury that this civil rights
claim is true and I seved a copy of RECONSIDERATION, to the
Solictor General: Sarah Rosenbluth: Office of the Attorney
General: The Capitol Albany N.Y. 12224
AND TO: United States Supreme Court. Clerk of Court Hon. Scott S.
Harris Washington D.C. 20543-0001

DATED: May 21 2021
Respectfully Submitted
Samuel R Toliver 09-B12(747
Wyoming eorrectlonal
P.O. Box 501
Attica, N.Y. 14011-0501

